No.19-348
IN THE

ST.JAMES SCHOOL,

Petitioner,

V.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE
I, Daniel P. Kearney, Jr., a member of the bar of this Court, hereby certify that,
on this 17th day of October, 2019, all parties required to be served have been served
copies of the Brief for Amicus Curiae Asma T. Uddin in Support of Petitioner in this
matter by overnight courier to the addresses on the attached service list.

DANIEL P. KEARNEY, JR.
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
daniel.kearney@wilmerhale.com

SERVICE LIST
ERIC CHRISTOPHER RASSBACH
THE BECKET FUND FOR RELIGIOUS LIBERTY

1200 New Hampshire Avenue, NW, Suite 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org
JENNIFER ANNE LIPSKI
JML LAW, A PROFESSIONAL LAW CORPORATION

5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com

